<html>
<title> - DONALDSON, EVANS, FALL AND SIMMONS NOMINATIONS</title>
<body><pre>[Senate Hearing 115-520]
[From the U.S. Government Publishing Office]


                                                     S. Hrg. 115-520

             DONALDSON, EVANS, FALL AND SIMMONS NOMINATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                   TO

   CONSIDER THE NOMINATIONS OF MS. TERI L. DONALDSON TO BE INSPECTOR 
   GENERAL OF THE DEPARTMENT OF ENERGY; MS. KAREN S. EVANS TO BE AN 
   ASSISTANT SECRETARY OF ENERGY (CYBERSECURITY, ENERGY SECURITY AND 
EMERGENCY RESPONSE); DR. CHRISTOPHER FALL TO BE DIRECTOR OF THE OFFICE 
   OF SCIENCE, DEPARTMENT OF ENERGY; AND MR. DANIEL SIMMONS TO BE AN 
 ASSISTANT SECRETARY OF ENERGY (ENERGY EFFICIENCY AND RENEWABLE ENERGY)

                               __________

                             JUNE 26, 2018

                               __________
                               
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                              


                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov               
               
               
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-617                      WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b5c5daf5d6c0c6c1ddd0d9c59bd6dad89b">[email&#160;protected]</a>                       
               
              
               
               
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
LAMAR ALEXANDER, Tennessee           MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
BILL CASSIDY, Louisiana              TAMMY DUCKWORTH, Illinois
ROB PORTMAN, Ohio                    CATHERINE CORTEZ MASTO, Nevada
SHELLEY MOORE CAPITO, West Virginia  TINA SMITH, Minnesota

                      Brian Hughes, Staff Director
                Patrick J. McCormick III, Chief Counsel
                 Kellie Donnelly, Deputy Chief Counsel
             Mary Louise Wagner, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                            
                            
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Cantwell, Hon. Maria, Ranking Member and a U.S. Senator from 
  Washington.....................................................     2
Barrasso, Hon. John, a U.S. Senator from Wyoming.................     4

                               WITNESSES

Donaldson, Teri L., nominated to be Inspector General of the 
  Department of Energy...........................................     8
Evans, Karen S., nominated to be an Assistant Secretary of Energy 
  (Cybersecurity, Energy Security and Emergency Response)........    13
Fall, Dr. Christopher, nominated to be Director of the Office of 
  Science, Department of Energy..................................    17
Simmons, Daniel, nominated to be an Assistant Secretary of Energy 
  (Energy Efficiency and Renewable Energy).......................    21

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Air Conditioning Contractors of America:
    Letter for the Record........................................    94
Alexander, Gen. Keith B. (Ret.), et al.:
    Letter for the Record........................................    96
Association of Home Appliance Manufacturers, et al.:
    Letter for the Record........................................   102
Barrasso, Hon. John:
    Introduction of Ms. Teri Donaldson...........................     4
Cantwell, Hon. Maria:
    Opening Statement............................................     2
Citizens for Responsible Energy Solutions:
    Letter for the Record........................................   104
Donaldson, Teri L.:
    Opening Statement............................................     8
    Written Testimony............................................    11
    Responses to Questions for the Record........................    43
Evans, Karen S.:
    Opening Statement............................................    13
    Written Testimony............................................    15
    Responses to Questions for the Record........................    46
Fall, Dr. Christopher:
    Opening Statement............................................    17
    Written Testimony............................................    19
    Responses to Questions for the Record........................    58
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
National Association of State Energy Officials:
    Letter for the Record........................................   105
O'Callaghan, Deirdre M.:
    Letter for the Record........................................   107
Page, Edward J.:
    Letter for the Record........................................   108
Payton, Theresa:
    Letter for the Record........................................   110
Simmons, Daniel:
    Opening Statement............................................    21
    Written Testimony............................................    24
    Responses to Questions for the Record........................    66
Struhs, David B.:
    Letter for the Record........................................     5

 
             DONALDSON, EVANS, FALL AND SIMMONS NOMINATIONS

                              ----------                              


                         TUESDAY, JUNE 26, 2018

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning. The Committee will come to 
order.
    We are here today to consider four nominees for the 
Department of Energy (DOE): Ms. Teri Donaldson to be the 
Inspector General; Ms. Karen Evans to be an Assistant Secretary 
of Energy for Cybersecurity, Energy Security and Emergency 
Response; Dr. Christopher Fall to be Director of the Office of 
Science; and Mr. Daniel Simmons to be an Assistant Secretary of 
Energy for Energy Efficiency and Renewable Energy (EERE).
    I am really very pleased that we actually have a full panel 
here before us this morning. Last time we had four nominees at 
the same hearing was last September, so it has been awhile, and 
I am just going to say for the record babies that are making 
noise are totally welcome because we need more kids in this 
room.
    [Laughter.]
    She is totally welcome, bring her back.
    But I am very impressed with the depth of experience and 
the qualifications that each of you bring to the table.
    Ms. Donaldson, it has been several years since DOE has had 
a permanent Inspector General. I think that time is long 
overdue. The IG is responsible for keeping the Secretary and 
Congress informed of fraud and other serious problems, rooting 
out abuses and deficiencies and recommending corrective 
actions.
    Our Committee has great respect for the Office of the 
Inspector General and the people who work within it at DOE. We 
expect that the individual who leads it to maintain his or her 
independence from the rest of the department and because this 
is essentially a lifetime appointment, the bar is pretty high 
here.
    Ms. Evans, the position you are nominated for is new but 
one of great responsibility and importance. Members of the 
Committee have had an opportunity to be read into this 
particular office and, again, the value that it brings to the 
conversation is so important. You are going to be paving the 
way for this brand-new Office of Cybersecurity, Energy Security 
and Emergency Response, or CESER. You will be focused on the 
security of our energy infrastructure, which Secretary Perry 
has stated is one of his highest priorities.
    As everyone here recognizes, the energy sector is a high-
value target for cyberattacks. Our Committee has spent many 
hours examining these threats, and we have heard that 
protection of our nation's critical assets is a shared 
responsibility that requires federal, state, and private sector 
partners to all be working together.
    If you are confirmed, we will be relying on you to help 
lead those efforts. We will also rely on you to help us answer 
some of the most fundamental questions in this space.
    The first one is what happens next? What is next? What 
should the Federal Government do, or perhaps refrain from 
doing, to meet dynamic and evolving threats, and how can we 
improve the cyber resiliency of critical energy infrastructure 
if a threat does become reality?
    Protecting our nation's energy infrastructure is critical 
to maintaining so much of the American way of life. We 
recognize that this is no small task. So, Ms. Evans, I welcome 
your willingness to take it on.
    Finally, Dr. Fall and Mr. Simmons, you have both spent time 
in my state attending the Alaska National Lab Day. We thank you 
for that. It was a great opportunity, I think, to rub elbows 
with some of the best, some of the brightest scientists, and 
also for working to build partnerships with UAF and others 
across our state. I view your presence at Alaska National Lab 
Day as a demonstration of your commitment to energy innovation 
and again, similar to cybersecurity, I cannot overstate the 
importance of that mission.
    Finding, nurturing, and bringing down the cost of new 
technologies is critically important to keeping energy 
affordable, providing for the strength of our economy, as well 
as addressing efforts to deal with climate change.
    I do have to say that while I was pleased to have both of 
you in Alaska, I really hope, Ms. Donaldson and Ms. Evans, that 
in your official capacity, you do not come and visit us in 
Alaska.
    But very seriously, given the positions that you will hold 
and the work that lies ahead, really for all of you, I 
anticipate that none of you will be strangers before this 
Committee. So I appreciate your willingness to serve, your 
commitment to work with us.
    I think we know that the dynamics on the Floor right now 
are not particularly favorable for moving nominees through, but 
know that I intend to seek to move your nominations as quickly 
as possible so that Secretary Perry can have the team that he 
needs in place as soon as possible.
    I now turn to Senator Cantwell for her comments this 
morning.

               STATEMENT OF HON. MARIA CANTWELL,
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair, and I so 
appreciate having the hearing this morning and congratulations 
to all the nominees.
    I am pleased the President has nominated a scientist to 
head the Office of Science, a former prosecutor to be the IG 
nominee, and someone who knows about information technology to 
run the new Cyber Office.
    I am concerned, however, about the nominee to run the 
Office of Energy Efficiency and I know that I will have 
questions about the Energy Efficiency and Renewable Energy 
Portfolio that you will be in charge of. I know that you have 
formerly been the Head of the American Energy Alliance, or Vice 
President, for nearly 10 years. There are a lot of things that 
you said during that time period that maybe you do not support 
today. I know abolishing the office was one of those things, 
but since we have an Energy Secretary who also wanted to 
abolish the Department of Energy, maybe--we will see how that 
works out.
    I look forward to asking you about your commitment to the 
mission of the Office of Energy Efficiency and Renewable Energy 
and about the directions that you plan to take for that office. 
I am sure many of my colleagues will have similar issues. I 
know in written statements you have said you understand the 
importance of the agency, about affordable energy, and your 
commitment to working toward affordable and reliable energy.
    I also intend to continue to pursue making sure all our 
colleagues at DOE understand the very terrible idea that the 
Administration is putting forward in trying to sell off assets 
from the Bonneville Power Administration and TVA. I am sure if 
my colleagues, Senator Alexander and Senator Risch, were here, 
we would all be in unison, both from the Midwest and the 
Northwest, that this is a terrible idea that should be stopped 
dead in its tracks.
    I also disagree with Secretary Perry's proposal to 
subsidize high-cost coal to compete with natural gas and 
renewables in the market but what we really want to understand 
is, is EERE going to continue on this important mission of 
driving down costs for businesses and consumers by using energy 
efficiency?
    I am particularly pleased that we are considering a 
nomination, as the Chair said, for Assistant Secretary for 
Cybersecurity, Energy Security and Emergency Response this 
morning. This new position, which Secretary Perry designated a 
few months ago, is needed to bring greater focus and attention 
to cyber threats facing our energy infrastructure, and I am 
sure that her background in the information technology area 
will be helpful, but we also want to drill down this morning on 
cybersecurity writ large and her expertise there.
    I so appreciate that our colleagues here and at the 
Department of Energy have been part of a secure briefing on the 
very real threat that we are facing. So we, in my opinion, 
can't be doing enough to bolster the Department of Energy's 
efforts here in paying attention on a daily basis to what is 
impacting us and the enormous amount of threats that we have to 
push back on every single day at our power plants and our 
secure facilities.
    So, again, I look forward to talking to each of the 
nominees this morning, and thank you, Madam Chair, for the 
hearing.
    The Chairman. Thank you, Senator Cantwell.
    Senator Barrasso, I know you had asked to introduce Ms. 
Donaldson.

                STATEMENT OF HON. JOHN BARRASSO,
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Thank you, Madam Chairman, and I would 
like to introduce Teri Donaldson to the Committee.
    Teri has been nominated by President Trump to serve as the 
Inspector General of the Department of Energy. Teri currently 
serves as our Chief Counsel at the Senate Environment and 
Public Works Committee (EPW), and she joined my committee staff 
in September 2017.
    Before Teri returned to public service last year, she spent 
over 12 years practicing law as a firm partner, most recently 
at DLA Piper, LLC, in Houston. She has substantial expertise 
with issues impacting the energy sector, water and power 
utilities, transporting, manufacturing, real estate 
development, as well as agriculture. She has gained extensive 
experience conducting internal investigations, managing 
compliance programs, working on enforcement actions, and 
leading litigation teams for corporate clients.
    Prior to joining the private sector, Teri served for nearly 
16 years in federal and state government. During that time, she 
served as general counsel to the Florida Department of 
Environmental Protection under Governor Jeb Bush. Before that, 
she was Assistant U.S. Attorney in the Middle District of 
Florida. As an Assistant U.S. Attorney, she successfully 
prosecuted hundreds of felony cases, including those for bank 
fraud, wire fraud, racketeering, healthcare fraud, tax fraud, 
and environmental crimes. She received numerous commendations 
during her tenure in the U.S. Attorney's Office, including 
special commendations from FBI Director Louis Freeh for work on 
a case involving conspiracy to murder federal officials, and 
from Attorney General Janet Reno for her work on successful 
nationally-significant environmental prosecution.
    David Struhs, who served as the Secretary of the Florida 
Department of Environmental Protection when Teri was general 
counsel, wrote, ``Teri has the highest integrity, exceptional 
intelligence, common sense, a pleasant demeanor, and the wisdom 
that comes from a broad range of legal and life experience.'' 
He went on to say, ``Teri is fearless. As an Assistant 
Attorney, U.S. Attorney, she prosecuted violent bank robbers, 
drug dealers, and individuals threatening federal officials.''
    I ask unanimous consent to enter Mr. Struhs' letter into 
the record, Madam Chairman.
    The Chairman. It will be included as part of the record.
    [Letter of David Struhs follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you, Madam Chairman.
    Teri will bring all of this experience with her to the job 
of Inspector General of the Department of Energy.
    The skills that she has honed throughout her public and 
private career ensure that she will be able to continue serving 
the public with distinction in her new role. She is the right 
person for the job of Inspector General of the Department of 
Energy, and I look forward to hearing her testimony and urge my 
fellow Committee members to support her nomination.
    Thank you, Madam Chairman.
    The Chairman. Thank you, Senator Barrasso.
    Ladies and gentlemen, the Rules of the Committee, which 
apply to all nominees, require that they be sworn in in 
connection with their testimony. So I would ask that all of you 
rise and raise your right hand.
    [Swearing-in witnesses.]
    The Chairman. I am going to go ahead and ask each of you to 
be seated.
    Before you begin your statements, I will ask three 
questions addressed to each nominee.
    First, will you be able to appear before this Committee and 
other Congressional committees to represent departmental 
positions and respond to issues of concern to the Congress?
    Ms. Donaldson. Yes.
    Ms. Evans. Yes.
    Dr. Fall. Yes.
    Mr. Simmons. Yes.
    The Chairman. Are you aware of any personal holdings, 
investments, or interests that could constitute a conflict or 
create an appearance of such a conflict should you be confirmed 
and assume the office to which you have been nominated by the 
President?
    Ms. Donaldson. No.
    Ms. Evans. I have an ethics agreement that----
    The Chairman. Can you go ahead and push your mike there?
    Ms. Evans. I have an ethics agreement that's in place and, 
should I be confirmed, I would execute that upon confirmation.
    Dr. Fall. No.
    Mr. Simmons. No.
    The Chairman. Are you involved, or do you have any assets 
held, in blind trusts?
    Ms. Donaldson. I do not, Madam Chairman.
    Ms. Evans. No.
    Dr. Fall. I have an ethics agreement that I'll execute if 
confirmed as a trustee for my mother.
    Mr. Simmons. No.
    The Chairman. All right. We will now begin with statements 
from each of you. I would ask that you try to limit your 
comments or your statements to about five minutes this morning. 
Your full statements will be included as part of the record.
    I know that some of you may have brought family members. We 
welcome them and you are certainly encouraged to introduce 
those who stand behind you to allow you to take on these 
important positions for which you have been nominated.
    Ms. Donaldson, you have been introduced very well by 
Senator Barrasso, so we will ask you to begin this morning with 
your comments.

   STATEMENT OF TERI L. DONALDSON, NOMINATED TO BE INSPECTOR 
              GENERAL OF THE DEPARTMENT OF ENERGY

    Ms. Donaldson. Chairman Murkowski, Ranking Member Cantwell, 
members and professional staff, good morning, and thank you for 
the honor of appearing before you today as the nominee for the 
Department of Energy's Office of Inspector General.
    I'd also like to thank President Trump, Senator Perry, and 
their teams for the confidence they've shown in me.
    Several family members are with me here today. My mother, 
Lorene, who's traveled here from Ashford, Alabama; my Aunt Bev 
is here from Atlanta; and my son Nathan, who's 15, who lives 
here in DC. These wonderful people are part of the support 
network that allows me to take on professional challenges, and 
I'm very grateful for the sacrifices they've made along the 
way.
    I had the tremendous good fortune, as Senator Barrasso 
mentioned, of starting my legal career as a federal prosecutor 
in Tampa, Florida. I was barely out of law school when the U.S. 
Attorney Bob Genzman took a chance and hired me for that job. I 
will always be extraordinarily grateful for that opportunity.
    I was hired in part because I had an interest in 
prosecuting environmental crime, and at that time very few 
environmental crimes were being prosecuted in the U.S. 
Attorney's Offices in the United States.
    During my nine years as a federal prosecutor, I worked 
closely with EPA, FBI, Coast Guard, and others and together we 
established one of the top three environmental crimes programs 
in the country. We prosecuted hazardous waste cases, Clean 
Water Act cases, Clean Air Act cases, and the very first 
prosecution of a felony under the Act to prevent pollution from 
ships. We also captured what was at that time the longest 
prison sentence ever imposed in an environmental crime case 
that did not involve a fatality.
    I learned a great deal in my time as a prosecutor about 
leading complex white collar investigations and about the 
importance of maintaining the highest standards of integrity 
when collecting and presenting evidence.
    If confirmed as Inspector General, I hope to bring the 
lessons that I learned as a federal prosecutor to the Office of 
Inspector General (OIG).
    I was in my ninth year as a federal prosecutor when the 
environmental work that we were doing attracted the attention 
of Governor Jeb Bush, who was our new governor at that time, 
and his secretary, David Struhs. David had just been appointed 
to be the Secretary of the Florida Department of Environmental 
Protection (DEP), one of Florida's largest agencies. I joined 
David's team as General Counsel in 1999. David was kind enough 
to write a letter for me, and I greatly appreciate that.
    One of my first assignments at DEP was to lead the legal 
team negotiating the ACF Water Wars. During that time, DEP was 
also litigating the Everglades Restoration cases, TMDLs, and 
several other matters of national significance. We also endured 
more than our share of tropical storms and hurricanes during 
this timeframe, which created significant issues for securing 
the hazardous waste sites around the State of Florida. At that 
time, DEP also housed the Florida Energy Office, so we were 
heavily involved in offshore drilling issues, pipelines, and 
power matters. It was a great experience for me to see the 
world from the perspective of the state. I left DEP as the next 
Administration was coming onboard and entered private practice.
    I then spent over 12 years in private practice as a 
partner, the last seven of which were in Houston, Texas. The 
energy aspects of my practice led me to relocate to Houston in 
2011, which was a great experience for both me and my sons, 
both of whom are now Texans and proud to say so.
    My time in the private sector was just as interesting and 
rewarding as my time in the public sector. In fact, I probably 
learned more in the private sector. I represented energy 
companies, utilities, manufacturing, waste companies, 
railroads, airlines, and others.
    Although I cannot disclose the details, I led many internal 
investigations for national and international companies. These 
investigations were conducted very much like the work of an 
inspector general. In these situations, clients hire outside 
counsel to investigate the facts and bring independent findings 
back to the company.
    Several of these investigations began because employees 
stepped forward to report problems. So I have firsthand 
experience with the critical role these employees play and the 
need to protect such employees from retaliation.
    I also did energy-related project work in the private 
sector. I managed environmental budgets for energy projects and 
gained firsthand experience with risk assessments from the 
perspective of the regulated entity.
    I was lead counsel on several large procurement matters. I 
understand the importance of clear rules and expectations.
    My experience in the private sector will inform my views 
and expectations as Inspector General if I have the honor of 
being confirmed.
    About a year ago, I joined Senator Barrasso's team on EPW. 
I had never worked for a legislative body, so I am especially 
grateful for that opportunity. Thank you, Senator Barrasso, for 
your kind comments.
    One of the things I've learned during my time on the EPW 
staff is that being responsive to Congress is critically 
important. Congress rightly expects thorough and complete 
answers at the earliest possible time. Requests from Congress 
are important so that we all can get the facts straight and 
communicate effectively with the American people. If confirmed, 
I will be both thoughtful and responsive to Congress.
    As you know, the role of the Inspector General is not a 
policymaking role. If confirmed, it would be my job to remain 
impartial and to avoid demonstrating a preference for one 
policy over the other.
    In closing, what excites me most about the opportunity to 
join the team at DEP is to learn more about the groundbreaking 
work being done at the national laboratories. It's not an 
exaggeration to say that these laboratories are making some of 
the most significant contributions to areas, including 
computing, medical technologies, energy-related technologies 
and, of course, national defense.
    If confirmed, I hope to advance these efforts by devoting 
OIG resources, as needed, to protect these world-class 
facilities.
    Thank you.
    [The prepared statement of Ms. Donaldson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Ms. Donaldson. Thank you so much.
    Ms. Evans, welcome to the Committee. We are pleased to hear 
your statement, recognizing that you have been nominated to be 
Assistant Secretary of Energy, Cybersecurity, Energy Security 
and Emergency Response.
    Welcome.

   STATEMENT OF KAREN S. EVANS, NOMINATED TO BE AN ASSISTANT 
    SECRETARY OF ENERGY (CYBERSECURITY, ENERGY SECURITY AND 
                      EMERGENCY RESPONSE)

    Ms. Evans. Chairman Murkowski, Ranking Member Cantwell, and 
members of the Committee, thank you for the opportunity to 
appear before you today as the President's nominee to be the 
Assistant Secretary for Cybersecurity, Energy Security and 
Emergency Response at the Department of Energy.
    It is an honor to be before this Committee, and I would 
like to thank President Trump and Secretary Perry for 
displaying their confidence in me by nominating me to this 
important position.
    If I have the distinct honor of being confirmed by this 
Committee and the United States Senate, I look forward to 
working with each of you and your respective staffs to address 
the threats on our energy infrastructure and implementing the 
responsibilities associated with my role at the department in 
this new office.
    The energy sector is the lifeline for all other critical 
infrastructure. It is only with the appropriate degree of 
preparedness and timely response to our threats and to the 
energy systems that we will reduce the risk and provide needed 
resiliency of the electric grid for the safety and the well-
being of the American people.
    I want to thank all of my family, those who are with me 
today and those who could not be. With me today are my husband 
of 35 years, Randy, and my two older sisters, Kathleen 
Schoonover and Karla Peard, who have supported me through all 
aspects of my life.
    I'd like to recognize my two children, Jacob and Samantha, 
who could not be here but have helped me focus on the important 
things in life, and my parents who are no longer with us, but 
if not for their love and support through my life, I would not 
be here today, and especially my father who also dedicated his 
career to public service and who proudly served in our Armed 
Forces and achieved the rank of captain.
    In 1978, while in college, I began my career as a GS-2 with 
the National Park Service and eventually achieved the rank of 
senior executive as the CIO at the Department of Energy, where 
I was responsible for the management and successful operation 
of the IT Program.
    During my tenure as the CIO for the department, I also 
served as the Vice Chairperson for the Federal CIO Council. In 
that interagency post, I coordinated the council's efforts in 
developing the Federal IT Programs and improving information 
resource management practices.
    In 2003, I was Presidentially appointed to the 
Administrator for the E-Government and IT Office at the Office 
of Management and Budget (OMB), now commonly referred to as the 
Federal CIO. In that role, I was responsible for overseeing the 
implementation of IT programs, including cybersecurity 
programs, throughout the Federal Government and advising the 
Director of OMB on the performance of IT investments.
    Upon first retiring from the federal service, I focused 
mostly on cybersecurity and the related workforce issues, given 
the critical need that exists for all sectors of our nation, 
both public and private. As such, I developed and led the U.S. 
Cyber Challenge (USCC), which is a nationwide talent search and 
skills development program within the Center for Internet 
Security.
    During my time at the USCC, the program has held an annual 
online qualifying competition for four summer camps which we 
have conducted in partnership with universities, community 
colleges, and high schools, and have been instrumental in 
identifying over 7,000 individuals with the goal of assisting 
10,000 of America's best and brightest to fill the ranks of 
cybersecurity professionals and serve our nation.
    In conjunction with my efforts at the USCC, I also co-
chaired a two-year effort on behalf of the Center for Strategic 
and International Studies Cyber Policy Task Force to provide 
cybersecurity recommendations for the Administration to foster 
a secure and stable digital environment that supports our 
economic growth and ensuring personal freedoms and national 
security.
    With the increasing cyber threats to our nation's critical 
infrastructure, the newly-formed office appropriately elevates 
the department's focus on energy infrastructure and protection 
and supports the expanded national security responsibilities 
assigned to the department. It is the intention that this 
office will enable more coordinated preparedness and response 
to cyber and physical threats and natural and manmade 
disasters. The dedicated and focused attention on these 
responsibilities will provide greater visibility, 
accountability, and flexibility to protect our nation's 
critical energy infrastructure and support our private industry 
partners.
    If confirmed, I will lead the office by leveraging my 
cybersecurity and national security experience to reduce risks 
to our nation's energy infrastructure by ensuring redundancy 
and resiliency to our energy systems.
    Chairman Murkowski, Ranking Member Cantwell, and Members of 
the Committee, thank you again for the opportunity to appear 
before you as the President's Nominee as an Assistant Secretary 
in the Department of Energy, and I look forward to answering 
your questions when you consider my nomination.
    [The prepared statement of Ms. Evans follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Ms. Evans. We so appreciate that.
    Dr. Fall, welcome to the Committee.

STATEMENT OF DR. CHRISTOPHER FALL, NOMINATED TO BE DIRECTOR OF 
          THE OFFICE OF SCIENCE, DEPARTMENT OF ENERGY

    Dr. Fall. Chairman Murkowski, Ranking Member Cantwell, and 
Members of the Committee, thank you for the opportunity to 
appear before you as the nominee to be Director of the Office 
of Science at the Department of Energy.
    I would also like to thank the President and Secretary 
Perry for their trust and confidence in nominating me.
    I am deeply honored to be considered for this position, 
assisting the Secretary in the leadership of what I believe to 
be the world's preeminent science enterprise.
    Please allow me to introduce you to my family from across 
the river in Arlington. My wife, Dr. Sandra Wilkniss, may be 
familiar to some of you from her time as staff for Senator 
Heinrich and Senator Bingaman before that. She's joined by our 
daughter Alex and our son Leo. I believe that some of my 
current and former colleagues are here today, and I appreciate 
their support.
    Sandra and I came to Washington just about eight years ago 
from academia to do one-year science policy fellowships, and I 
had the great fortune to land at the Office of Naval Research 
to work on innovation strategies.
    The Navy cleverly convinced me to stay longer with a 
remarkable trip out to an aircraft carrier at sea and I moved 
on to run the International Liaison Office, to be Deputy 
Director of Research for STEM and Workforce Programs, and, most 
recently, to briefly manage the Navy's Basic Research Portfolio 
and to be Acting Chief Scientist.
    The Office of Naval Research was the first federal science-
funding agency and it dates from the seminal policy decisions 
in 1946 to fund research at universities in order to assure our 
national security and to grow our national prosperity. The 
Office of Science continues in that tradition.
    I was privileged to spend three of those years across two 
Administrations overseeing defense programs at the White House 
Office of Science and Technology Policy. For about half of that 
time, I led the National Security and International Affairs 
Division in the absence of a confirmed appointee.
    In addition to defense issues, my team coordinated science 
and technology policy for the intelligence community, homeland 
security, biosecurity, nuclear security, as well as 
international science and technology cooperation.
    All of this was in close collaboration with the departments 
and agencies that do science and technology and the various 
other policy councils of the Executive Office of the President.
    From this experience, I believe that I have a deep 
appreciation for the larger context in which the Office of 
Science sits. I'm currently running ARPA-E, pending a nominee.
    Secretary Perry is fond of saying that the most important 
job he's had is Governor of Texas but the coolest job is 
Secretary of Energy. ARPA-E is kind of like the special forces 
for science and technology in the Department of Energy, and 
it's a really exciting place to be as a scientist and engineer.
    ARPA-E might end up being the coolest job I ever have but I 
want to assure you all that I understand and appreciate the 
profound importance of the tradition, mission, and work of the 
Office of Science, our National Laboratories, and the many 
university and private sector scientists and engineers who 
contribute to our nation's leadership in science.
    I've had the chance to visit most of the Office of Science 
and National Nuclear Security Administration laboratories and I 
visited Idaho National Lab under the Office of Nuclear Energy.
    Two weeks ago, the Colorado Energy Research Laboratory 
hosted me for a fantastic visit to NREL, the three affiliated 
universities, and the oil and gas fields of Weld County.
    I was also grateful for the opportunity to join my DOE 
colleagues at the Chairman's recent Energy Summit in Fairbanks. 
I did spend four of the best summers of my life working in 
Southeast Alaska for the U.S. Forest Service and for a 
fisheries company when I was much younger but I didn't fully 
appreciate the opportunities that remote and harsh environments 
present for developing, testing, and commercializing advanced 
energy technologies.
    It's always a thrill to visit our incredible National 
Laboratories and I believe it's also important to get out of 
Washington to connect with the energy problems, opportunities, 
and solutions that exist outside of government.
    If I'm confirmed as Director, my priorities will be those 
that the Secretary and the Under Secretary for Science have 
previously charted for you. Exo-scale computing, engineering 
biology, and artificial intelligence are all key new science 
priorities.
    The Department has a great deal of capability relevant to 
the microelectronics industry and the nascent area of quantum 
information sciences presents a special opportunity for U.S. 
leadership. These are all fields of intense international 
competition. The best basic science is done collaboratively 
with the smartest minds from around the world, but I do expect 
that the Secretary will also ask me to assure that we are 
protecting our commercial and national security intellectual 
property appropriately.
    Thank you again for the opportunity to appear before you. 
If confirmed, I promise my fullest effort and attention and I 
will work collaboratively and transparently with you and your 
staffs.
    I look forward to any questions that you might have.
    [The prepared statement of Dr. Fall follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Dr. Fall.
    Mr. Simmons, welcome to the Committee.

   STATEMENT OF DANIEL SIMMONS, NOMINATED TO BE AN ASSISTANT 
  SECRETARY OF ENERGY (ENERGY EFFICIENCY AND RENEWABLE ENERGY)

    Mr. Simmons. Thank you. Chairman Murkowski, Ranking Member 
Cantwell, distinguished members of the Committee, and staff, 
thank you for the opportunity and your interest and leadership 
on energy matters.
    It is an honor to be the President's nominee for Assistant 
Secretary for Energy Efficiency and Renewable Energy at the 
Department of Energy.
    If confirmed, I look forward to working with this 
Committee, Secretary Perry, and the dedicated workforce of the 
Department serving the American people.
    Joining me for this hearing are my family and friends, 
without whom I would not be here today. You've seen my wife and 
three-year-old daughter previously. Hopefully they'll make a 
return at some point. We also have a four-year-old son who 
believed that there were many more places to play with trucks 
at the beach than there is at a Senate hearing, so he is with 
his grandmother and aunt and uncle who are hopefully watching 
online. My wife is my inspiration for public service following 
in her father's footsteps working at the State Department. Also 
joining me today is my father from Utah and my mother is 
watching online.
    The house I grew up in was a passive solar double envelope 
home, which is a fancy way of saying that it's rather energy-
efficient. Almost all the energy came from renewable energy in 
that house. My parents couldn't have known that choosing to 
build a passive solar double envelope home would spark a 
lifelong interest in this area. I'm grateful for my parents for 
stressing the importance of education as my mother was a 
kindergarten teacher and my father is a college professor.
    For the last year, I've been the Principal Deputy Assistant 
Secretary in the EERE and for a time, the Acting Assistant 
Secretary. This has been a great job and only reinforces my 
desire to lead this office and fulfill its mission.
    One of the best parts of the job has been visiting a number 
of the national labs. In the last year, I've visited NREL, 
PNNL, Oak Ridge, Argonne, Sandia, and INL. These trips have 
been educational and inspirational.
    The best part of visiting the national labs is talking to 
the researchers and seeing the excitement they have for their 
work, from advancing hydropower and the electric grid of 
tomorrow at PNNL to innovative solid state heating and cooling 
technologies at Oak Ridge to Sandia's solar tower and their 
semi-conductor foundry to next generation battery work at 
Argonne, and, of course, I'm not forgetting NREL, the first lab 
I visited after joining EERE. EERE is the steward for NREL and 
NREL is at the cutting edge of many of the renewable energy and 
energy efficient technologies. At the most recent EERE all-
hands meeting, NREL Director Martin Keller addressed EERE staff 
and talked about the innovative work NREL is doing for EERE and 
NREL's vision for the future.
    The national labs are truly important assets, and it has 
been my honor to serve alongside the dedicated women and men 
who work in DOE's national labs.
    Becoming the Principal Deputy Assistant Secretary, I have 
approached this job with an open mind and the eagerness to 
learn. I have focused on following Congressional direction 
while advancing the Administration's priorities.
    I commend EERE staff for their work on executing the 
appropriations that Congress has given. Since the Omnibus Bill 
became law earlier this year, EERE has announced over $640 
million in financial assistance, in addition to continued 
funding for our national labs in line with 2018 appropriations. 
As we look to the future, I think there are three things that 
are critical for the success of the technologies in EERE's 
portfolio.
    First, we will continue to work to reduce the cost of these 
technologies. We need to have a real focus on energy 
affordability. We have seen large cost decreases of 
photovoltaic solar and onshore wind, for example, but we have 
not seen the same magnitude of reductions for other energy 
technologies.
    Second, the price reduction in wind and solar are leading 
to increased amounts of these variable resources on the grid. 
It is critical, therefore, that we are working to improve grid 
integration, to increase the flexibility of these and other 
resources. One important area here is working with the Advanced 
Manufacturing Office on improved power electronics. Advanced 
power electronics enable wind and solar to contribute in more 
significant ways to grid reliability and resilience. Also, it 
is critical that EERE works with the Office of Electricity and 
with other energy offices through the Grid Modernization 
Initiative on technologies to support a more reliable, 
resilient, secure, and diverse electric grid.
    The third priority is energy storage. The Office of 
Electricity conducts important research on grid scale 
batteries. EERE also works on energy storage in a multitude of 
ways, from next generation battery technologies for electric 
vehicles to energy-efficient, grid-connected building 
technologies (as I testified before this Committee last fall), 
DuPont Hydro, which is currently the largest source of energy 
storage on the grid today. We also work with EERE's <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="723a40322111131e17">[email&#160;protected]</a> 
Program which examines ways to generate, store, and use 
hydrogen for a variety of applications, from storage to the 
industrial processes. I believe that we need a portfolio 
approach to energy storage that allows us to think about 
storage as broadly as possible, and apparently my daughter has 
returned.
    I have spent the last 20 years working on energy and 
environmental issues. My mindset has always been to work toward 
affordable and reliable energy that also continues to advance 
our clean energy success story in the United States. I believe 
that affordable energy is crucial for all Americans, especially 
for low- and middle-income families.
    I am grateful for the opportunity I've had to lead EERE, to 
work toward advancing renewable energy technologies and 
improving energy efficiency. If confirmed, I will work to 
further advance these technologies to develop more abundant, 
reliable, clean, and diverse energy systems than ever before.
    Members of the Committee, I wish to thank you for allowing 
me to be here today. It is indeed an honor to come before this 
Committee and I ask for your favorable consideration of the 
President's nomination.
    I look forward to hearing your questions.
    [The prepared statement of Mr. Simmons follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Simmons.
    Thank each of you for being here and thank you for 
including your family members, each and all of them, young and 
old. We like to have them here before the Committee.
    Let me begin with you, Ms. Evans. The Committee has focused 
a fair amount of attention to the issue of cybersecurity, 
making sure that we are properly paying attention not only in 
terms of resources but just really what we are doing from a 
broader perspective, recognizing that within DOE, DOE has been 
designated as the sector-specific agency for cyber.
    With this new office, you are it. You are basically 
defining this cybersecurity office. So just very briefly, if 
you can share with the Committee how you anticipate moving 
forward with this new office, ensuring that there is a smooth 
transition here, ensuring that as you are standing this up, 
that the focus that we need to have on the issue of cyber more 
broadly does not get kind of moved aside because you are doing 
just more of the administrative stand-up. So if you can speak 
to the role of this new office and how you believe this office 
can help advance our cybersecurity.
    Ms. Evans. Thank you, Senator, for the question. Throughout 
my career, based on my experience, I've always had the 
opportunity to take advantage of being the first, which helps 
me institutionalize whatever that concept is within a 
department or an agency, and so I'm very excited with this 
opportunity and this new office going forward.
    A lot of work has already been done in the Department of 
Energy as it relates to cybersecurity. They have recently 
released a multiyear cybersecurity plan. So a lot of the 
groundwork is there.
    It is my intention to leverage that work and to partner 
with other offices, such as Bruce Walker's office that has led 
this effort, and to be able to implement and actually make a 
lot of these things actionable plans because the time now is 
not necessarily I don't want to admire the problem anymore. I 
think a lot of us have done that through the years.
    It's really now to execute and to really start looking at 
how do you make these systems more resilient, how you ensure 
that you have a response plan, that you exercise that response 
plan, and you do it in partnership with private industry and 
state and local governments.
    The Chairman. Well, I appreciate that and understand that 
your role will also be trying to figure out how this all 
intersects together, even outside of DOE, and the role that you 
have there.
    Ms. Donaldson, I was impressed to learn of your background; 
you have clearly impressive credentials.
    I think you know that as Inspector General there is an 
obligation, there is a duty, to report to Congress. There is 
also a requirement, if you will, or certainly an expectation 
that there be very clear independence within the Office of the 
Inspector General as audits and investigations that might move 
forward under DOE proceed.
    Can you speak very quickly to how you will not only ensure 
the independence of your office with regard to audits but how 
you will ensure that the communication between the Office of 
the Inspector General and Congress is facilitated? I would also 
like your assurance that you will respond to Members of 
Congress in a timely manner when requests for information are 
made.
    Ms. Donaldson. Thank you, Chairman.
    The Chairman. You need to go ahead and push that button.
    Ms. Donaldson. On the issue of responsiveness, I think 
that's probably one of the most important things that the 
Inspector General must do. So it may take some time to marshal 
the facts and develop a thoughtful response but it will always 
be a top priority of mine to get back to Congress as quickly as 
possible with a thorough and complete response.
    Having worked here for the last year, I have a greater 
appreciation for the importance of that. Things move very 
quickly in the halls and having all of the facts in place for 
the decision-makers is a mission-critical thing to do.
    Preserving the independence of the Office of the Inspector 
General is equally important. In order to be able to evaluate 
the facts and render findings that people will respect, you 
have to maintain your impartiality and continue to be 
independent.
    The Office of the Inspector General has done, in my view, 
so far an outstanding job of doing that. Their reports are very 
objective and balanced, the ones that I've reviewed, and the 
people that I've met in that office seem to really value 
maintaining the integrity and independence of that office. So 
I'd like to continue that tradition.
    The Chairman. We appreciate that. Thank you.
    Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair.
    I do have questions for all of you, so if you can help me 
out as succinctly as possible, that will be great.
    Ms. Evans, do you believe that we need to have a critical 
assessment threat about where we are with cybersecurity?
    Ms. Evans. Senator, I appreciate the question. I would ask 
about some specificity associated with the threat assessment.
    Based on what I've read and what is available publicly, 
several threat assessments as relates to cybersecurity have 
been completed, for example from the intelligence community.
    If you're asking specifically about the energy resources, 
it's my understanding that that has been done as a result of 
the Executive Order and, should I be confirmed, I would look at 
that threat assessment and see if there are any other 
additional gaps.
    Senator Cantwell. I think I should just follow up very 
specifically on what we think is missing and see if you can 
help us out with an answer there.
    Ms. Donaldson, obviously Hanford is a big priority for our 
state and making sure that cleanup happens but making sure that 
contractors are accountable but also for protecting workers. 
Will you make Hanford one of your priorities and make sure that 
the accountability of contractors and worker safety is a 
priority?
    Ms. Donaldson. Yes, I will, Senator Cantwell.
    Senator Cantwell. Thank you.
    Mr. Fall, on science and information, obviously we have a 
lot of concern that maybe certain science and information is 
not being made public. Will you make sure that the science 
community has data and modeling on climate and what it will 
mean for our nation and infrastructure?
    Dr. Fall. Yes, ma'am.
    Senator Cantwell. Thank you.
    Okay. Now, Mr. Simmons, I wanted to ask you specifically, 
do you have any hesitation about your role at EERE as it 
relates to standards and the standards that must be set, so 
that we can move forward on energy efficiency?
    Mr. Simmons. No.
    Senator Cantwell. Okay. If that is the case, why do we have 
such a backlog at the agency right now? I think we have 23 
different proposals that are being considered--I am sorry. 
There are 23 missed deadlines for products that are being 
considered in this process. So do you think there is a big 
backlog?
    Mr. Simmons. There is a backlog, and if confirmed, I will 
work to process through that backlog. There are two very 
important legal deadlines that we have. One is the date 
deadline for these regulations to review them every six years, 
to review test procedures every seven years, and also when we 
set standards, because of the no-backsliding provisions, we 
only kind of get one bite of that apple. That means we need to 
be very careful so that the rules withstand judicial scrutiny. 
So it's important to meet those deadlines and to really meet 
all of our legal obligations when we're promulgating those 
regulations.
    Senator Cantwell. So you feel qualified and experienced and 
full-throated, I guess, in going over to the House of 
Representatives, who has held up our energy policy that we have 
tried to pass because they do not want to look at things on the 
building side or appliance side, which we think are critical 
for getting consumers and businesses more energy efficiency?
    Mr. Simmons. I'm not familiar enough with that disagreement 
to really comment on it. I'm sorry.
    Senator Cantwell. Okay. This will be a key part of your 
job. So maybe before we vote on you, you could take a look at 
that.
    I have considered many nominees and usually to me what 
somebody says in their past job, whether they are a nominee to 
be a judge and were a college professor, in your case working 
for some institutions that did not support these policies, is 
less important than what they say now. But I need to know that 
this agency is going to operate in the most aggressive manner 
possible.
    Coming from a state where energy efficiency has delivered 
over and over and over and over again for us, I have a whole 
economy being developed. I have a whole block in Spokane that 
plans on being a net zero block. They believe in it. They 
believe in moving forward, even though we have cheap hydro, you 
would think a $0.03 to $0.04 kilowatt rate, that they would not 
continue to be so adamant, but they are, and so I want that 
economy to move forward in my state and in our nation.
    I need to know that you are going to be as aggressive as 
possible. So we will get you that information about the 
legislation and then you can take a look at it. It may be that 
you and I have to have further conversation about this, but we 
have seen a slow walking by some on this and I am telling you 
it is wrong-headed, it is the wrong approach, and our nation is 
going to be in the manufacturing base very, very competitive on 
international basis if we can drive down electricity costs. So 
that should be our mantra, and I hope you will lead that 
charge.
    Mr. Simmons. I will not slow walk any of those regulations.
    The Chairman. Senator Gardner.
    Senator Gardner. Thank you, Madam Chair. Thank you to the 
witnesses for your fine testimony today and, of course, for 
your willingness to serve our country. It is greatly 
appreciated. And to your families here, thank you very much for 
your commitment to public service.
    Mr. Simmons, in your testimony, you mentioned the 
stewardship of the National Renewable Energy Laboratory (NREL) 
engagement with other national labs and financial assistance to 
industry and academia. Where does stewardship for NREL rank in 
your priorities for EERE? What investments are you prepared to 
make in the laboratory's infrastructure and equipment to 
sustain its impact, and if overall EERE funding were to vary, 
can we take steps to smooth the effects on NREL to make sure 
that it can do long-term planning?
    Mr. Simmons. Oh, without a doubt. One of the--so when we, 
especially last year, when we were in the time of great 
budgetary uncertainty with the President's request, you know, 
being at a substantially different level, one of the things 
that we made sure to do was to pre-fund NREL to make sure that 
they had as many resources as they needed until we had more 
budget certainty.
    Taking care of the resources of NREL, both the people and 
the physical assets, are very important. It's very important to 
me. You know, one downside to becoming nominated is I'm not 
visiting NREL as previously planned, but I will hopefully be 
able to in the future. But NREL is very important for us, and I 
think that we have a very good working relationship with NREL, 
with Martin Keller.
    Senator Gardner. Very good. To follow up on the question, 
where do you think NREL stands in terms of priorities for EERE? 
Where's the rank?
    Mr. Simmons. Oh, from the EERE side, number one, without a 
doubt----
    Senator Gardner. Great.
    Mr. Simmons. ----from all the national labs.
    Senator Gardner. Right answer. Thank you.
    News reports have said that the Administration's Government 
Reorganization Plan might merge DOE's Applied Energy Offices 
into one Innovation Office. I understand it might merge EERE, 
Fossil, and Nuclear Energy Offices. How could this impact the 
National Renewable Energy Laboratory, NREL, as well as the 
Idaho Lab?
    Mr. Simmons. I don't know is the simplest answer that I can 
give. I don't have more specifics on that plan, other than what 
was released the other day.
    Senator Gardner. Okay. I think it is important that we 
continue to strengthen our research development in science. I 
think that labs that we have under the jurisdiction of this 
Committee have done an incredible job and continue to do that, 
and if we are going to maintain our leadership in innovation 
and the advantages that we have through those breakthroughs and 
the jobs that are created, we have to continue to increase our 
opportunities in research science, our support of the federal 
labs. Please know that when you come into the office, all of 
you, that will be something--well, maybe not all of you but at 
least certainly for two of you, that will be something that I 
talk about regularly, how we make sure that we maintain our 
leadership in innovation and technology.
    Dr. Fall, I wanted to follow up with you on a question that 
we talked about during our time in the office. We talked a lot 
about looking into our competitors around the globe in terms of 
what they are doing from a security standpoint, from a 
weaponization standpoint, from a munitions standpoint and that 
kind of thing. Do we have a good look into what they are doing 
in basic research development science? Do we know what our 
competitors are doing when it comes to their breakthroughs and 
super-computers, quantum computing, those kind of things?
    Dr. Fall. Senator, as we talked about in our meeting, I 
haven't tracked this as much while I've been back at the Office 
of Naval Research and at Department of Energy, but certainly 
when I was in the Office of Science and Technology Policy, this 
was something we paid a great deal of attention to.
    I would say that we could stand to have more resources on 
the intelligence side looking at issues of basic science and 
technology. There's a lot of problems in the world and those 
folks are occupied with a lot of things and sometimes our 
competitiveness in basic science sort of takes a backseat to 
things like weapons and military and so forth.
    Senator Gardner. And the importance of that would be just 
give us a good look at what they are trying to do from an 
innovation standpoint for their economies. Is that why, or is 
there another reason I am missing?
    Dr. Fall. Well, that's right. I mean, the mantra of the 
intelligence community is providing decision superiority. If we 
don't understand what's going on around the rest of the world 
in science and technology, we can't really adapt effectively.
    Senator Gardner. From our investments in science and the 
research, how do we prevent and stop leakage of that 
information, the intellectual property, from going to our 
adversaries or competitors?
    Dr. Fall. That's a hard question. I understand that the 
Secretary has directed the department to look at it on a wider 
basis. I would say that ultimately the answer is to out-
innovate and out-compete in science and that shorter-term 
measures, trade issues, et cetera, aren't as effective in 
science and technology because information is fungible.
    Senator Gardner. Thank you.
    Ms. Evans, do you have counterparts in other agencies, and 
do you know who they are?
    Ms. Evans. For this particular office, no, sir, there are 
not counterparts as it's structured. However, in other 
agencies, there are those who have the lead as the sector-
specific agency and so there are parts of organizations that 
will also have this type of function, but this is the first 
being organized this way.
    Senator Gardner. When you look overall at the whole of 
government, who do you report to from a cyber standpoint, whole 
of government? Secretary of Energy obviously.
    Ms. Evans. The Secretary of Energy, sir, and then I would 
also partner, depending on the circumstance, with Department of 
Homeland Security, in the NPPD group, Under Secretary Chris 
Krebs.
    Senator Gardner. And do you believe there is a clear plan 
of action when it comes to that coordination amongst the 
agencies from a cyber standpoint?
    Ms. Evans. I believe that people understand their roles and 
responsibilities. As far as clear coordination, we can always 
improve upon our coordination and we would always improve as we 
execute out our roles and responsibilities.
    Senator Gardner. Thank you. I am going to self-police here 
because the timer is not running, so I am not sure how much 
time I have but----
    The Chairman. I was looking----
    Senator Gardner. ----I could go on.
    The Chairman. ----at this, thinking I don't know how you 
got----
    Senator Gardner. This is the magic minute.
    The Chairman. ----the golden ticket here.
    Senator Gardner. That is right. It is magic.
    The Chairman. But I think I am going to take it away.
    Senator Gardner. I will have some questions to follow up, 
but I will be polite and hand it over to somebody else.
    The Chairman. You are very generous. Thank you, Senator 
Gardner.
    Senator Smith.
    Senator Smith. Senator Gardner is not interested in a long 
filibuster today, although it is very interesting.
    Madam Chair, thank you so much for this Committee hearing 
and thank you so much to all four of you for your willingness 
to serve our country. I very much appreciate it.
    I appreciate the questions around cybersecurity and also 
around the national labs, which I think are very, very 
important. I am glad to have had that discussion, but I would 
like to actually focus in a little bit on the Office of Energy 
Efficiency and Renewable Energy.
    Mr. Simmons, am I saying that correctly?
    Mr. Simmons. Yes, ma'am.
    Senator Smith. Yes.
    Mr. Simmons. Yes.
    Senator Smith. Yes, thank you. So here is the thing. I am 
trying to jive your past career, which seems to me has been 
focused on working against renewable energy and climate 
science, with your role leading this agency which is focused on 
energy efficiency and renewable energy.
    In 2013, you said, ``No matter what the renewable energy 
guys say, what they won't admit is that their type of power, 
wind and solar, is more expensive and will increase the price 
of electricity. It is critical that we do everything we can to 
keep prices low.'' This matters to me in Minnesota where we 
have a thriving wind and solar energy biosector, bioenergy 
sector. We are a leader in energy efficiency. So my question to 
you is this. Is it your view that the cheapest power is the 
best power, that cost should rule when we are making decisions 
about energy generation?
    Mr. Simmons. No, I don't think that the cost should always 
rule, but my view is that consumers should be able to choose 
the type of energy that they want to power their lives with.
    One of the--you know, the way that I see my role here in 
the Office of Energy Efficiency and Renewable Energy is to 
reduce the cost of renewable energy so to enable people to use 
those sources more often. As I mentioned earlier, I grew up in 
a solar home. I think that in the late '70s, as my parents were 
considering building that home, near the '80s, that we had 
hoped that the price of solar would come down then. Well, it's 
come down now and particularly over the past five years. I mean 
that's one of the things that's changed since I made that 
statement.
    Senator Smith. So I would agree with you. I think that cost 
is important. I believe that we should have affordable, 
reliable and clean energy, and for me clean energy means that 
it is good for public health and it is also good for mitigating 
the impacts of climate change. Would you agree with that?
    Mr. Simmons. I would. Yes, I would, I would.
    Senator Smith. Okay. Good. I think this public health issue 
is a really important issue. The Supreme Court has ruled that 
the negative public health consequences of climate change are a 
reason that greenhouse gas emissions should be regulated by the 
government and be reduced under the Clean Air Act.
    Would you agree then that if cost is not the only driver, 
as you say, that the Supreme Court is right and that public 
health, the public health consequences of greenhouse gas 
emissions should also be considered as we are looking at what 
kind of power we want to generate?
    Mr. Simmons. Well, I agree that greenhouse gas emissions 
are definitely a factor that people can consider in making 
these decisions.
    Senator Smith. Okay, okay. Let me just ask one other 
question in the minutes, couple of minutes, I have left.
    Let me just find my question here. This is a question 
having to do with the budget of your department. In your 
interim role at DOE, you have been involved in preparing the 
budget. It is, I think, a challenge to be preparing budgets for 
the Office of Energy Efficiency and Renewable Energy in an 
Administration which seems to not be that favorable to that 
work. The President's current budget request would cut that 
budget by, I think, 65 percent. How would you jive that kind of 
budget cut with what I think, maybe you would agree, is the 
extremely important work that we have to do maintaining our 
competitive advantage when it comes to research and development 
around renewable?
    Mr. Simmons. Well, I believe that at the President's 
request level, which is, you know, in the ballpark of about 
$700 million, particularly by focusing on early stage research 
and development, we can do a lot of good at that level. For 
example, we had in the budget, in the FY '19 budget request, it 
included this Beyond Batteries idea, this concept, where we're 
trying to think as broadly as possible about energy storage and 
using innovative ways to store energy and new concepts.
    That said, Congress has the final say when it comes to 
appropriating dollars and so I wanted to make crystal clear 
that (1) I understand that and work very hard to make sure that 
we act on the budget that Congress has given us since, as I 
also mentioned in my opening statement, the Omnibus 
Appropriations Bill was passed, we have obligated $640 million, 
not obligated, we have announced $640 million in new funding 
and selections in that time period, that it is very important 
for me in this role to act on the budget that Congress gives.
    Senator Smith. Well, I agree with that. I think, though, 
that it is extremely important that this department--we are 
looking at massive investments by China and others in energy 
efficiency and renewables and I am quite concerned that we have 
a risk of losing a competitive advantage as a country if we do 
not really pursue this in a full-throated way, and I would look 
for this department and for you to be pursuing that.
    Madam Chair, I realize I do not have a golden ticket here. 
I appreciate your responses, and I have a few more questions 
which I will submit for the record.
    The Chairman. Thank you, Senator Smith.
    Senator Portman.
    Senator Portman. Thank you, Madam Chair, and I appreciate 
all four of you being willing to step up and continue to serve.
    The Department of Energy is very lucky to get Karen Evans 
to be the Assistant Secretary for Cyber and Energy Security and 
Emergency Response. I got to work with her on her E-Government 
and Information Technology role when I was at the Office of 
Management and Budget and she is a consummate professional, a 
career person who worked her way up through the system. Karen, 
thank you for your service. Congratulations. I am not going to 
ask you any tough questions. That is your reward for your 
service.
    Simmons, on the other hand--no.
    [Laughter.]
    So Dan Simmons is up for Assistant Secretary of Energy 
Efficiency, and you know this job well because you have been 
there as acting and we have had a chance to interact. I 
appreciate your answers to Senator Smith and, as you know, I 
have been working on this energy efficiency legislation for 
quite awhile with Senator Shaheen. It has actually been seven 
years and some of it has been passed, some of it has passed the 
Senate but not the House.
    Senator Murkowski has been key to getting this through the 
Senate with a big vote because she included it in her broader 
energy legislation, and she, among others on both sides of the 
aisle, are very supportive of energy efficiency.
    By the way, I would like to say it is the equivalent of 
taking 22 million cars off the road in terms of the savings on 
emissions over a period of 15 years, and there are no jobs 
lost. In fact, the one estimate is it creates about 190,000 new 
jobs.
    So energy efficiency is a way to achieve environmental 
objectives that many of us have but to do so without hurting 
the economy. In fact, in many respects helping the economy and 
making our workers more efficient, therefore more able to 
compete in global marketplaces. It is a win-win-win sort of 
approach, and I just appreciate your commitment to it.
    Secretary Perry was here before us talking about his 
interest in energy efficiency, so you have a boss who cares 
about it.
    Let me ask you about the Tenant Star program. We are 
finally getting that up and going. That is one of the things 
that did pass and it incentivizes tenants, as you know, to have 
energy-efficient structures. It is like the ENERGY STAR 
program. As you know, it lets them have a certificate, a 
placard up. We have, I think, 47 different tenants who have now 
stepped forward, said they want to be part of this program. One 
in Cleveland, Ohio, by the way, Forest City. I commend Forest 
City for their advocacy for a long time. What is your view of 
the Energy Efficiency Program generally and specifically Tenant 
Star and its implementation?
    Mr. Simmons. So I think energy efficiency is very 
important. Energy efficiency really is one key driver to 
overall economic efficiency.
    A couple weeks ago, I had the opportunity to go to 
Pennsylvania and to visit Martin Guitars. They made acoustic 
guitars for Crosby, Stills & Nash, Paul Simon, and other people 
I like. But what's fun about visiting the factory is seeing 
what they've done with their chiller and cooler to become, you 
know--I think it was to reduce their electricity consumption by 
about a half and we were recognizing them through DOE's Better 
Plants Program as in companies that have been leaders and are 
willing to share what they're working with others. So that is 
one thing that they're doing and it's great to highlight those 
activities.
    The Tenant Star program, I'm not familiar enough with that 
to comment on it, but I will look into it.
    Senator Portman. Yes, I appreciate you looking into it and 
making sure it is implemented properly and, again, we are 
finally launching it. It passed in 2015 in this body and the 
House, so it has been a couple years. It is time for us to get 
it up and going and people are excited about it. The real 
estate industry is excited about it, and it is going to help 
with regard to efficiency in buildings.
    The other building efficiency part of our legislation that 
passed the Senate but not the House is to update and develop 
better building codes and we have this as part of the 
legislation because we know that a critical part of energy 
efficiency is buildings--commercial buildings, residential, all 
the above.
    It requires the Department of Energy to provide model 
building codes but also provide the states with technical 
assistance to adopt and implement building codes and ensure 
that we have the opportunity to get best practices from around 
the country. When Secretary Perry, again, appeared before the 
Committee, he said he was supportive of that.
    Specifically, will you commit today to working with me to 
advance building codes and ensure that DOE remains engaged in 
the building code development process?
    Mr. Simmons. Yes, we will. We will definitely remain 
engaged in the building code development process.
    Senator Portman. Is there more you think the Department of 
Energy should be doing in terms of energy efficiency absent our 
legislation?
    Mr. Simmons. Not familiar enough with the legislation to 
add on to it at this point, but I don't know of any additions 
in terms of energy efficiency.
    Senator Portman. Yes. I am suggesting even without the 
legislation, is there more you would like to do, but we will 
continue this conversation. I appreciate your commitment today 
on the building codes front and look into Tenant Star and be 
sure that is being implemented properly. We look forward to, 
once again, under the leadership of Senator Murkowski, getting 
some legislation to the President's desk.
    Thank you.
    Mr. Simmons. Thank you.
    The Chairman. Thank you, Senator Portman.
    Senator Cortez Masto.
    Senator Cortez Masto. Thank you. Welcome. Congratulations. 
Welcome to all of your family.
    Ms. Evans, let me start with you. Hydropower accounts for 
about 40 percent of the renewable energy that is produced in 
Nevada. While the Presidential Policy Directive on Critical 
Infrastructure Security and Resilience from 2013 designates DOE 
as the sector-specific agency with responsibility for the power 
grid, DHS is also responsible for the dam sector. How will you 
work with DHS and DOE's Hydropower Program and the Water Power 
Technologies Office to address threats at our hydropower 
facilities?
    Ms. Evans. Thank you, Senator, for that question. It's my 
understanding that in this new role with the aspect of energy 
security, that I would be partnering directly with Department 
of Homeland Security as it relates to my responsibilities as a 
sector-specific agency and so, if confirmed, I would look at 
more details and would be happy to work with you and your staff 
going forward as we develop some of these plans and details of 
how to exercise out on them.
    Senator Cortez Masto. I appreciate that. So you are still 
in the process of kind of fleshing out all the specifics with--
--
    Ms. Evans. Yes, ma'am.
    Senator Cortez Masto. ----respect to authority. Thank you. 
I look forward to working with you.
    In your view, how are the threats to our water and power 
infrastructure assets evolving over time?
    Ms. Evans. It's my understanding, based on my previous 
experience, many of these systems are run by industrial 
controls types of systems and those types of things and so 
those are more operational technology types of activities. So, 
if confirmed, I would have to really dive deep into that to 
look at some of those implementation plans, some of those 
operational plans, and I do know, based on the plan that has 
been released by the Department in the Multiyear Cybersecurity 
Plan, that that takes into consideration both IT and 
operational technologies. So it would be a risk-based approach 
to look at that and then to actually get to those details and 
implement and develop those plans.
    Senator Cortez Masto. Thank you. I know you just mentioned 
cybersecurity. I know there is some conversation regarding that 
issue.
    The public and private sectors must compete for a limited 
pool of highly-trained cyber experts. We have been having these 
conversations on the challenges we face in addressing this. We 
know because of that competition it creates a shortage of 
cybersecurity leadership and expertise. How can DOE develop the 
workforce to stay at the forefront of cyber defense?
    Ms. Evans. I am so happy you asked me that question. I'm 
very excited. That has been the basis of my work since I've 
left government is to close the gaps in cybersecurity, and I 
think that if I'm confirmed that DOE could really lead the way 
through a lot of innovative approaches to identifying talent, 
such as some of the approaches that we've taken with the U.S. 
Cyber Challenge using competitions, to identify certain skill 
sets that you're looking for.
    For example, one of the things that we did was actually lay 
out SCADA systems. What would be the correct response when you 
are executing out on an incident in a SCADA system? Then we 
developed the competition around that and then we put it online 
and then we had people compete in that competition and then, 
based on their performance, we brought them to a boot camp. 
Then what we try to do is open up that aperture so that they 
can see all the possibilities of what they can do in a 
cybersecurity professional job.
    So there are a lot of activities that are going on 
immediately as well as long-term through STEM and through 
working with colleges and changing their curriculum. I think 
that DOE, if I am confirmed, could really lead the way here.
    Senator Cortez Masto. Thank you. You know, I have to say, 
sitting in my last profession as the Attorney General, I 
chaired, kind of, a cyber task force and this is one of the 
issues that we were always tackling. It is so great to see and 
hear a federal agency that is actually focused on workforce and 
how to develop it and create a wonderful model that I think 
other agencies can emulate. So thank you. I so appreciate your 
response to that.
    Mr. Simmons, I have a quick minute here. On June 21st, the 
White House released a proposal to reorganize the Federal 
Government with specific implications for DOE. Specifically, 
DOE's Applied Energy Programs would be consolidated into one 
office. It sounds like your position might be eliminated or 
folded into other offices. How does this proposal affect your 
job to support and propel the implementation of the EERE 
technologies?
    Mr. Simmons. Well, I don't think that that reorganization 
proposal necessarily affects--well, I mean, who knows. It might 
eliminate the Assistant Secretary.
    Senator Cortez Masto. Have you seen any----
    Mr. Simmons. I don't know that. I don't know. I don't see 
this proposal as eliminating the support for renewable energy 
and energy efficiency.
    What I think this reorganization is trying to do is to have 
better coordination across the Department. One of the real 
challenges that we face in the Department of Energy is you 
have, say, the Office of Science working on a bioenergy issue, 
one of the offices in EERE, the Bioenergy Technology Office, I 
mean that's what they do, as well, and then you have ARPA-E 
that's also funding bioenergy issues, and so it's important to 
coordinate across all three and this is by no means--this is 
just one example.
    There are many examples of where there can be and should be 
better cross-office coordination. In that specific example, the 
people working on bioenergy all met recently to coordinate and 
that's a good thing. We need to continue that, but one of the 
real benefits I see to that reorganization proposal is kind of 
greater integration across the Department on people that are 
working on similar things.
    Senator Cortez Masto. Thank you. I noticed my time is up.
    Congratulations again to all of you. Thank you.
    The Chairman. Thank you, Senator.
    Senator King.
    Senator King. Thank you, Madam Chair.
    First, I think the record should show that it is impossible 
that Ms. Evans is old enough to have worked with Rob Portman at 
OMB----
    [Laughter.]
    ----unless they hired teenagers.
    The first thing I want to say is, and this is no disrespect 
to the Inspector General nominee, a very important position, 
but I think these three jobs are three of the most important 
positions in the United States Government.
    Number one is cyber. It is something that is a crucial 
challenge facing us and I hope, Ms. Evans, as you are in the 
counsels of the Administration, there are two things I would 
urge you to urge.
    One is to set up a structure so that there is one point of 
authority on the issues of cyber throughout the United States 
Government. I go to these hearings all the time and everybody 
says the ``whole of government.'' When I hear that, I think 
none of government. That means nobody's in charge and nobody's 
accountable. I believe that we need a leadership position 
because there are at least seven or eight agencies by my count 
that have responsibilities in cyber, not to mention working 
with the private sector. So that's number one. Please urge the 
Administration to think about a cyber coordination function.
    Secondly, we need a cyber doctrine or a strategy to make 
our adversaries understand that they will pay a price for a 
cyberattack on this country. Right now, there is no deterrence. 
We are entirely defensive and ultimately that is a losing 
strategy. So those are two things that I think are critically 
important to defending this country. Otherwise, we know that a 
cyberattack is coming at some point. It is the longest wind-up 
for a punch in the history of the world, and shame on us if we 
are not prepared for it. The best way to prepare for it is to 
deter it so that those who would attack us in this means 
understand that there will be a price to be paid. It will be a 
serious one. It will be proportional to the attack.
    With that, I hope those are two messages that you can carry 
back.
    Ms. Evans. I would be happy to do that, sir.
    Senator King. Thank you.
    Dr. Fall, no real questions, except to say for the work 
that you do in terms of science overall is absolutely 
critically important going back to 10 or 15-20 years to the 
science support from the Department of Energy that led to the 
fracking revolution that changed the energy face of America, an 
incredibly important position. I am delighted to have a person 
of your qualifications and history in that position.
    Mr. Simmons, I apologize. I was late for the introductory 
statements and I read your pre-filed testimony. I noticed that 
you said that your father is here from Utah and I have scanned 
the audience and I think I've----
    [Laughter.]
    Thank you, sir, for being here.
    Mr. Simmons, you and I had what we would characterize and 
communicate as a full and frank discussion yesterday, and I 
think there are some points that you have made that are very 
important and I really appreciate them.
    One is the emphasis on storage. I think that is the next 
big issue as we develop renewables. Storage is a crucial 
element and I really appreciate your looking at that and 
looking at it in a broad way, not just batteries but other 
kinds of storage, and efficiency, which you discussed with 
Senator Portman. The cheapest kilowatt hour is the one you 
don't use and there's tremendous potential for further 
efficiency developments.
    Finally, I express my concern because your career prior to 
this job was in more conservative think tanks and critical of 
renewable energy and the development of these energy forms and 
your office provided a speech that you made to the Department 
that I think was reassuring to me.
    So in the remainder of my time, give me some assurance that 
you are not here to diminish or undercut developments moving us 
toward a renewable future but, in fact, you are entering into 
this job not someone who is inimical to the mission but is 
supportive of the mission of the agency to which you have been 
appointed.
    Mr. Simmons. Well, let me say to start with is that there 
is no other place in DOE that I would rather be than in the 
Office of Energy Efficiency and Renewable Energy, that the last 
year that I have spent there has been great and very 
fulfilling, and I have the opportunity to work with what I 
think are the best people in DOE, no offense to my other 
panelists.
    You know, I believe in EERE's mission, which is to advance 
American leadership in renewable energy and energy efficiency, 
that this is a different job than jobs that I've had in the 
past. This job is to advance that leadership and to do it with 
the tools that Congress has given the leader of that office.
    For the most part, that is to focus on R&D through funding 
and so it is critically important, as I view that role, that we 
are making sure that the funding gets--that we work hand-in-
hand with the national labs, that we have a good R&D kind of 
roadmap, that we are talking with industry, that we're talking 
with stakeholders.
    One of the things that I've worked very hard to do over the 
last year is to take meetings with almost everyone that would 
come and talk to me to hear their concerns, to hear from the 
industry about is this the correct roadmap, are we going in the 
right place, and so it's important from my perspective to talk 
to the solar industry, to talk to the wind industry, you know, 
industries that we've had policy differences in the past, it is 
fair to say, to make sure that in this job, in this role, in 
promoting research and development, that, you know, we--well, 
that the Department is aligned with what research and 
development makes the most sense, that that is what I see as 
the role of the Assistant Secretary at EERE and, if I'm 
fortunate enough to be confirmed, that's what I will continue 
to do.
    Senator King. And will you commit to me that you will 
faithfully implement the policies established by Congress and 
the funding that are established by Congress for this office?
    Mr. Simmons. Yes. One of the key parts to me about doing 
this job is to be a good soldier. I have tried to do that for 
the last year in the role as Principal Deputy Assistant 
Secretary, and I will do that in the future.
    Senator King. Thank you. Thank you, Madam Chair.
    The Chairman. Thank you, Senator King.
    I thank each of you. I have a couple more questions, having 
posed in the first round both to Ms. Donaldson and Ms. Evans. 
Mr. Simmons and Dr. Fall, again I appreciate both of you being 
up in Alaska in May--the engagement that you had not only with 
the leaders of our national labs but with Alaskans to better 
understand some of the challenges but also the opportunities 
that we have there. Mr. Simmons, I appreciate your comments 
this morning really keying in on how we work to address the 
affordability aspect of energy because in my state we are still 
the highest cost energy state. We are struggling but we have so 
many opportunities that we get very, very excited about and we 
are starting to see some of that.
    Senator King will be interested to know that a company 
based out of Maine is now working with us in Alaska with the 
Marine Hydrokinetic Project, and they were successfully awarded 
a grant to move forward this summer with their river turbine. 
This is exciting for us as we deal with, again, the 
opportunities that come with challenges.
    One of the things that I would ask you, Mr. Simmons, to 
commit to working with us on is this definition of microgrid, 
recognizing that the Department's definition of the term still 
stipulates that it has to be to connect and disconnect from the 
grid and, of course, in many parts of Alaska and in Hawaii, we 
have situations where independent microgrids are really the 
only means of providing electricity.
    There are no grids to connect to or to disconnect from and 
knowing that we want to ensure that all these funding 
opportunities are made available--we do not want them to be 
confined by a definition. Hopefully, after your observations of 
what is going on in Alaska, you can help us work with that.
    I would note that we have been successful recently, 
Cordova's project, allowing us to move forward. That again is 
one of those things where we want to know that we don't have 
anything that is holding us back there. So we would look 
forward to working with you on that.
    Mr. Simmons. We will work with the Office of Electricity on 
fixing that definition.
    The Chairman. Great, thank you. And, Dr. Fall, I wanted to 
mention to you the issue of critical minerals. As a Committee, 
we have spent a fair amount of time here trying to shed some 
light on just the overall importance of critical mineral 
dependence and, as you know, this is not just a matter of 
digging the minerals out of the ground. It is our ability to 
know where our resources are, to have reasonable regulations 
for our mining industry, and, third and fourth, and these are 
areas that you can help, is we have to be able to provide some 
low-cost energy to many of these mining facilities. They are in 
very remote places.
    You want to talk about disconnected from the grid. There is 
no grid for hundreds of miles practically and so innovation 
with micro generators and microgrids. I look at some of the 
innovation that can go on in this space and think about the 
role that your office can take in really working to help 
support critical minerals and materials and also working with 
the Department of the Interior, along with DOE, to move the 
ball forward on establishing domestic supplies of critical 
minerals and critical materials.
    I put this on your radar screen because, again, it is 
something we talk a lot about. Where we have been with oil--the 
World Gas Conference is this week--so there is a lot of 
discussion about what is going on with gas. It was not too many 
years ago where we were talking about building the import 
terminals for natural gas. We were on our last legs when it 
came to oil and so we recognize that with technologies, changes 
can come and can come in sometimes astounding ways.
    I am very concerned, though, that we have a view toward our 
minerals that is very narrow. We are willing to take it from 
anywhere else on the globe, oftentimes at not only very high 
environmental costs but also very high human costs. The way 
these minerals are being extracted in certain countries is 
really not only wrong, it is a humanitarian issue. It is akin 
to a level of conscription that is just not acceptable. Knowing 
that your office would help us address some of these issues as 
they relate to critical minerals would be greatly appreciated.
    Dr. Fall. Yes, ma'am, and I would offer that there are 
policy considerations, as you mentioned, and also, you know, 
developing technology to reduce the dependence on some of those 
critical minerals is something that we can help with, as well.
    The Chairman. Very good. Well, I appreciate the testimony 
from each of you. I appreciate your willingness to serve.
    To colleagues, I will just let you know that we are looking 
to schedule a hearing in the not-too-distant future here on 
these proposals that are floating around right now from the 
Administration about some of this reorganization.
    I know about as much as you know about it in the sense that 
we are reading it in the trade journals, but I think for 
purposes of much of the discussion that we have heard here from 
these nominees for DOE, there are a lot of questions that we 
all have about how would this work, how would this mesh.
    Mr. Simmons, I think your answer is very honest in saying I 
don't know yet. Well, we do not know yet either and we would 
like to get a little more information because it will certainly 
impact you.
    Again, I thank you all for your willingness to serve. I 
thank the families that have joined you not only here in person 
today but telephonically and who give you that support to do 
important work for our country.
    With that, this Committee stands adjourned.
    [Whereupon, at 11:31 a.m., the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                    [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
